No.

(Capital Case)

In The Supreme Court of the United States
JAMAAL HOWARD, PETITIONER
V.

BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION, RESPONDENT
_________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

___________
PETITION FOR A WRIT OF CERTIORARI

___________
in forma pauperis
_____________

DON BAILEY
ATTORNEY FOR PETITIONER
309 N. WILLOW
SHERMAN, TEXAS 75090
(903) 892-9185

CAPITAL CASE

QUESTIONS PRESENTED
1. Did the Fifth Circuit err in considering the totality of three different trials, and excusing
the District Court’s erroneous conclusion regarding the proper standard, in considering
the claim that Mr. Howard receive the ineffective assistance of counsel when his attorney
failed to conduct a reasonable investigation of his life history and to have a mental health
evaluation conducted in light of that history?
2. Did the Fifth Circuit err in considering the totality of three different trials and the District
Court’s erroneous legal conclusion when they denied Mr. Howard’s claim that he was
denied his Sixth & Fourteenth Amendment rights to effective assistance of counsel when
his attorney failed to investigate Mr. Howard’s psychosocial history thoroughly and
failed to seek timely and relevant evaluations of the mental condition of Mr. Howard
regarding: a. his competence to stand trial and whether his waiver of Miranda rights and
subsequent confession were knowing and intelligent?

PARTIES TO THE PROCEEDINGS BELOW
All parties appear on the cover page in the caption of the case.

2

TABLE OF CONTENTS
Table of Authorities……………………………………………. 4-5
Opinions below ...…………………………………………… 6
Jurisdiction ……………………………………………………. 6
Constitutional and Statutory Provisions……………………….. 6
Statement of the Case………………………………………….. 6
A. Procedural History…………………………..……………. 7
B. Factual History……………………………………………. 9
Reasons for granting the writ…………………………………… 14
Conclusion…………………..………………………………….. 22

3

TABLE OF AUTHORITIES
Cases:
Abdul–Kabir v. Quarterman,550 U.S. 233, 127 S.Ct. 1654 (2007)

18

Atkins v. Virginia, 536 U.S. 304 (2002)

12

Beavers v. Balkcom, 636 F.2d 114 (5th Cir.1981)

21

Bell v.Ohio,438 U.S. 637, 98S.Ct. 2977, 57 L.Ed.2d 1010 (1978)

18

Bouchillon v. Collins, 907 F.2d 589 (5th Cir.1990)

21

Cuyler v. Sullivan, 466 U.S. 335, 100 S.Ct. 1708, 1716 (1980)

15

Eddings v. Oklahoma,455 U.S. 104, 102 S.Ct. 869, 71 L.Ed.2d 1 (1982)

18

Ex parte Briseno, 135 S.W. 3d, 1 (Tex. Crim. App. 2004)

12

Ex Parte Howard, No. WR-77906-01, 2012 WL 6300668 (Tex. Crim. App. Dec. 12, 2012)
9
Hitchcock v. Dugger,481 U.S. 393, 107 S.Ct. 1821, 95 L.Ed.2d 347 (1987)

18

Howard v. Davis, 959 F.3d 168 (5th Cir. 2020)

6, 14, 16

Howard v. State, 153 S.W.3d 382 (Tex. Crim. App. 2004)

8

Howard v. Texas, 546 U.S. 1214 (2006)

8

Lockett v. Ohio,438 U.S.586, 98 S.Ct. 2954, 57 L.Ed.2d 973 (1978)

18

Miranda v. Arizona, 384 U.S. 436 (1966)

21

Moore v. Texas, 581 U.S. ___, 137 S.Ct. 1019 (2017)

13

Penry v. Johnson,532 U.S. 782, 121 S.Ct. 1910, 150 L.Ed.2d 9 (2001)

18

Penry v. Lynaugh,492 U.S. 302, 109 S.Ct. 2934, 106 L.Ed.2d 256 (1989)

18

Powell v. Alabama, 287 U.S. 45, 53 S.Ct. 55 (1932)

15

Profitt v. Waldron, 831 F.2d 1245 (5th Cir.1987)

21

4

Skipper v. South Carolina,476 U.S. 1, 106 S.Ct. 1669, 90 L.Ed.2d 1 (1986)

18

Smith v. Texas,543 U.S. 37, 125 S.Ct. 400, 160 L.Ed.2d 303 (2004)

18

Strickland v. Washington, 466 U.S. 668 (1984)

14-15

Tennard v. Dretke,542 U.S. 274, 124 S.Ct. 2562, 159 L.Ed.2d 384 (2004)

18

United States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039 (1984)

15

United States v. Clark, 741 F.2d 699 (5th Cir. 1984)

16

Woodson v.North Carolina,428 U.S. 280, 96 S.Ct. 297 (1976)

18

Wiggins v. Smith, 539 U.S. 510 (2003)

14-15

5

PETITION FOR A WRIT OF CERTIORARI
____________
Jamaal Howard petitions for a writ of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit in this case.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the Fifth Circuit, denying a motion
for certificate of appealability, is reported at Howard v. Davis, 959 F.3d 168 (5th Cir. 2020) and
is attached as Appendix 1. The unpublished opinion of the District Court granting summary
judgment is attached as Appendix 2.

JURISDICTION
The judgment of the United States Court of Appeals for the Fifth Circuit was entered on
May 11, 2020. 1 The court of appeals had jurisdiction pursuant to 28 U.S.C. § 2254 and § 1291.
The jurisdiction of this Court rests on 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the Constitution allows that "In all criminal prosecutions, the
accused shall enjoy the right...to have the Assistance of Counsel for his defence.”

STATEMENT OF THE CASE
On May 12, 2000, Jamaal Howard, a young black young man with a history of
mental health and intellectual impairment issues, killed a person in the course of
committing robbery in Hardin County, Texas. Mr. Howard was subsequently convicted

1

Pursuant to the Supreme Court’s March 19, 2020, COVID order, this petition is submitted within 150 days of the
Judgment of the Fifth Circuit.

6

by an all-white jury and given the death penalty. He spent the next four years in and out
of prison psychiatric hospitals and remains heavily medicated to this date for mental
issues.
A.

PROCEDURAL HISTORY
On June 13, 2000, a Hardin County Grand Jury indicted Mr. Howard for the

capital murder of Vickie Swartout during the course of committing robbery. (ROA. 1313) Mr.
Howard’s family hired Tyrone Moncriffe, an attorney from Houston, to represent Mr. Howard.
(ROA. 1315) Mr. Moncriffe never filed any document or pleading bringing up the three most
important matters in this case, that is, competency, mental deficiency and insanity. In fact, as
noted below, it was the state that moved for a competency trial after they had rested and Mr.
Moncriffe first introduced the issue during the opening witness of the defense case. In fact, as
noted below, it was the state that moved for a competency trial after they had rested and Mr.
Moncriffe first introduced the issue during the opening witness of the defense case. Mr.
Moncriffe did not bring up insanity until March 15, 2001, halfway through individual voir dire,
in an oral notice to the Court that he was changing the plea to not guilty by reason of insanity.
(ROA. 2672) Mr. Moncriffe never had Mr. Howard examined specifically for insanity by
anyone. Mr. Moncriffe moved orally for a competency evaluation on March 5, 2001, the day
before jury selection was to start. (ROA. 1690-1691)
The state rested after just over one day of testimony on guilt-innocence. (ROA. 4280) At
the conclusion of Dr. Duncan’s testimony, the prosecutor, Mr. Roach moved for a competency
trial. Something Mr. Howard’s attorney never did. At 11:10 a.m. on the second day of trial, the
court stood in recess to determine competency. (ROA. 4307-4309) Thus, pursuant to Tex. Code
of Crim. Proc. Art. 46.02 § 2(b) the court sent the jury home to have a competency trial.

7

On April 11, 2001, the first competency trial commenced. (ROA.4935) After
hearing the witnesses, including Dr. Fason, the jury notified the court that they were deadlocked.
The court instructed the jury to continue to deliberate and one hour and forty minutes later the
jury again said they were deadlocked and the court declared a mistrial. (ROA. 5158-5159) The
court ordered a new jury panel to be summoned for the following Monday, April, 16th. (ROA.
5161)
The second competency trial proceeded in much the same manner as the first with
the exception that Mr. Howard’s attorney failed to call his one expert witness, Dr. Fason. The all
white jury found Mr. Howard competent in 47 minutes of deliberation on the second competency
trial. (ROA. 5464-5465)
The punishment hearing consisted largely of state witnesses with a few of Mr. Howard’s
family and friends testifying about his mental issues. Dr. Fason also testified. Mr. Howard was
given the death penalty.
Mr. Howard’s direct appeal asserted nine potential errors. (ROA. 1203-1265) The State
responded on December 13, 2002. (ROA. 1267-1303) The Texas Court of Criminal Appeals
affirmed the conviction with two justices dissenting. 2 Howard v. State, 153 S.W.3d 382 (Tex.
Crim. App. 2004) On February 27, 2006, the Supreme Court denied a petition for certiorari.
Howard v. Texas, 546 U.S. 1214 (2006) (ROA. 6336)
On April 24, 2003, the application for writ of habeas corpus was submitted for Mr.
Howard. (ROA. 6043-6145) Among the claims presented were intellectual disability (ROA.
6045-6061) and claims of ineffective assistance of counsel in presenting competency and
insanity (ROA. 6070-6073) There were also claims that Mr. Howard received the ineffective

2

There was no dissenting opinion so the basis of the dissent is unknown.
8

assistance of counsel due to the lack of presentation of mitigating evidence including the prior
gunshot wound and the proper development of that issue as well as the failure to present
evidence regarding intellectual disability. (ROA. 6116-6120) Nine years then passed in which
the original state Judge (Plunk) was replaced with Judge Thomas. No evidentiary hearing was
allowed.
On June 15, 2012, the trial court 3 signed off on the State’s proposed findings and
conclusions and forwarded to the Texas Court of Criminal Appeals without a hearing on the
claims. (ROA. 6295-6313) On December 12, 2012, the Texas Court of Criminal Appeals denied
the application for writ of habeas corpus. Ex Parte Howard, No, WR-77906-01, 2012 WL
6200668 (Tex. Crim. App. Dec. 12, 2012) (ROA. 6020)
B.

FACTUAL HISTORY

The facts are that Mr. Howard’s attorney did little to prepare for the issues that were
important to the trial, that is intellectual disability, competency and insanity. When Mr.
Moncriffe called Dr. Duncan as his first witness, during guilt innocence, this came to the
forefront when Mr. Moncriffe confirmed with Dr. Duncan that they had never met or spoken
prior to the current day of testimony, even though Dr. Duncan had been appointed to examine
Mr. Howard for competency. (ROA. 4281-4283) Dr. Duncan conducted what he termed an
extensive examination of Mr. Howard in mid-March to determine mental functioning, emotional
functioning, concentration, memory and so forth. Dr. Duncan’s stated that Mr. Howard’s
cognitive functioning was inconsistent because sometimes he could give coherent responses and
other times his responses were unintelligible, mumbling in a low tone, that required repeated
questioning. Mr. Howard would give inappropriate affect responses by suddenly smile or

3

The habeas judge was Judge Thomas, the trial judge was Judge Plunk.
9

chuckle for no known reason. This concerned Dr. Duncan because he was left wondering what
Mr. Howard was responding too. (ROA.4284-4288) Dr. Duncan concluded that Mr. Howard’s
mental state was declining. Dr. Duncan also found Mr. Howard’s mental competency
questionable whether he could reasonably assist his attorney in his defense. (ROA. 4302-4305)
Dr. Duncan stated that he had evaluated and examined Mr. Howard pursuant to a court order.
Consistent with previous testimony, Dr. Duncan talked about Mr. Howard’s inappropriate affect
and functioning that was not consistent. With regards to intellectual functioning Dr. Duncan gave
Mr. Howard a series of exercises to help estimate his intellectual functioning that resulted in a
borderline to mildly impaired range. Dr. Duncan explained that would be “at a borderline
mentally retarded range. To give you an idea of what that would be like, it would be about at a
maybe 11, 12 year old level.” (ROA.5000-5005) Based on the assessment and evaluation, Dr.
Duncan had questions about Mr. Howard’s ability to stand trial and the potential of
schizophrenia or other organic factors being present resulting in Mr. Howard’s erratic behavior.
Dr. Duncan further explained about intellectual impairment that he had given the verbal
portions of the Wechsler adult intelligence scale (WAIS) to come to a conclusion that Mr.
Howard was in the 65-70 range in intellectual functioning. The prosecutor brought out that Mr.
Howard could pass school achievement tests when he was in the tenth or eleventh grade. Dr.
Duncan stated that would indicate that there had been a deterioration or some slide in their
ability. (ROA. 5006-5016)
Dr. Fred Fason, a psychiatrist, stated, in the first competency trial, that with regards to
competency, Mr. Howard did not know what it meant that he could get the death penalty. Mr.
Howard was laughing inappropriately and stated that by telling a staff member a more negative
version of events regarding the crime he felt it could help him. Dr. Fason concluded after three

10

interviews with Mr. Howard and the other testing and investigation, that he lacked a rational
understanding of the charges against him and the consequences if convicted. (ROA. 5041-5045)
What is evidence of ineffective assistance of counsel is that Counsel noted he was changing Mr.
Howard’s plea to not guilty by reason of insanity shortly before trial. However, during guilt
innocence, Counsel did not present his one expert on mental illness, Dr. Fason. Thus, the
opportunity to develop the issue was never pursued except through court appointed experts and
the State’s expert, Dr. Gripon.
Dr. Duncan, (ROA. 5268-5304), Shirley Howard, (ROA. 5305-5324) Joann Farrell,
(ROA. 5334-5339) testified for the defense in the second competency trial. Sandra Johnson
testified that she had known Mr. Howard all his life and she noticed that before the incident Mr.
Howard would be dirty and would not seem to recognize her. Ms. Johnson noted that even in
court, Mr. Howard did not seem to recognize her. (ROA. 5339-5349)
During guilt-innocence, Mr. Howard’s lawyer did not present any experts regarding
insanity, something he had brought out by asserting a claim shortly before trial that he was
changing the plea to not guilty by reason of insanity. He called Dr. Duncan about competency,
but that was quickly turned into the first competency trial, with a different jury. Dr. Fason and
Dr. Duncan testified during the first competency trial, which resulted in a hung jury. The second
competency trial Dr. Fason was not called and no explanation has ever been provided. Thus, at
the conclusion of the guilt-innocence stage, Mr. Howard’s attorney had brought up the issue of
insanity, but had failed to provide the jury with the means by which they could agree.
What was presented at punishment, was that Shirley Harrison, a jailer in the Hardin
County Jail, noted that Mr. Howard would do what he was told in the jail and she had never had
a problem with him. (ROA. 4669-4670) Tyre Thomas, another jailer, testified that he known Mr.

11

Howard since childhood. Mr. Thomas again noted that Mr. Howard was different now in that he
talked to himself, had mood swings and did not pay attention to his personal hygiene. Mr.
Howard had to be told to brush his teeth and take a bath but he would comply when told too. Mr.
Howard did not give Mr. Thomas any problems in jail. (ROA. 4671-4673)
During punishment, Dr. Fred Fason, the defense psychiatrist, stated that in examining Mr.
Howard he saw a confused, not very bright person who was impenetrable. Dr. Fason could not
find out what Mr. Howard was thinking. What little information Mr. Howard would eventually
volunteer did not make any sense. Mr. Howard could not complete the MMPI-2 because he did
not understand basic words like mechanics and appetite. Dr. Fason noted that Mr. Howard
intellectual functioning had declined dramatically after second grade, dropping over sixty
percentile points in match in a matter of seven years. (ROA. 4716-4726) During interviews, Mr.
Howard would provide answers that did not make sense in conjunction with the question asked.
Mr. Howard would also started laughing at inappropriate junctures in the interview. Dr. Fason
concluded this inappropriate affect was one of the cardinal signs of schizophrenia. Dr. Fason’s
diagnosis of Mr. Howard was schizophrenia. (ROA. 4727-4736)
There were numerous witnesses that testified about Mr. Howard’s declining mental
health and his practice of talking to invisible people, poor hygiene and inappropriate behavior.
However, Counsel for Mr. Howard did not develop the issues before the jury as noted above.
During the state habeas proceedings, among the exhibits submitted were several medical
references that Mr. Howard had previously had a gunshot wound to his head. (ROA. 6149-6150,
6169) 4. There were also notes from a Dr. Guilette and notes from the jail which pointed to

4

This case was tried pre-Atkins, although appellate counsel cited Atkins v. Virginia, 536 U.S. 304 (2002), as
supplemental authority regarding a claim submitted of intellectual disability on direct appeal. (ROA. 1305) The
Texas Court of Criminal Appeals rejected the claim under Ex parte Briseno, 135 S.W. 3d, 1, 5 (Tex. Crim. App.

12

mental illness on the day of arrest that were not presented by Counsel. (ROA. 6072)
Additionally, State Habeas Counsel presented records from the Jester IV unit, after Mr. Howard
was admitted to that psychiatric prison unit on several occasions. On August 1, 2001, Mr.
Howard was brought from the Polunsky unit after he was “urinating on the walls, was withdrawn
and mute, and appeared to be deteriorating with very poor personal hygiene.” Mr. Howard was
given Haldol, Cogentin and Zooloft and his condition improved with a diagnosis of brief
psychotic disorder. Mr. Howard was discharged on February 13, 2002, after five and a half
months. (ROA. 6189-6190) Mr. Howard returned on July 15, 2002 to Jester IV as outpatient
because he was not taking his medication. His diagnosis was schizophrenia, chronic. (ROA.
6193-6194) Mr. Howard stayed at Jester IV until he was discharged on September 4, 2002. Mr.
Howard was now having rapid decompensation of mental illness by behavior problems,
disruptive behavior and self-mutilation. No test were given but the record shows he had
depression and schizophrenia. Mr. Howard’s Haldol was increased from 5 mg to 15 mg with
Prozac and Benadryl. 5(ROA. 6191-6192) Mr. Howard returned to Jester IV on October 8-10,
2002. The report states that Mr. Howard has undifferentiated schizophrenia and psychomotor
retardation. Mr. Howard continued to deny hallucinations and delusions but was taking Haldol,
and had been previously treated with Haldol D and Cogentin. Mr. Howard could not provide
much history, was disheveled and had “poverty of thought.” The result of the examination was
that the Haldol D was increased to the maximum dosage. (ROA. 6182-6185) Mr. Howard
remains the same as his was the day of the crime, a mentally ill individual with likely intellectual
disabilities based on the testimony of Dr. Fason, Dr. Gripon and Dr. Duncan.

2004)( The Briseno holding was specifically rejected in Moore v. Texas, 581 U.S. ___, 137 S.Ct. 1019 (2017)
(ROA. 1196-1198)
5
There was an early prison diagnosis, likely carried over from Dr. Gripon, of antisocial personality disorder. This
diagnosis faded and schizophrenia was the consistent diagnosis thereafter by every Doctor that examined him.

13

REASONS FOR GRANTING THE WRIT
The Fifth Circuit found that Mr. Howard’s counsel had argued at both opening and
closing regarding mental health and had “looped”in experts as needed. Howard v. Davis, 959
F.3d 168 at 172. Given that arguments are never evidence, what the Fifth Circuit should have
focused on is what actually occurred during the presentation of evidence. Mr. Howard’s attorney
had raised insanity and competency. He presented no evidence during guilt innocence from his
one mental health expert on insanity. He used Dr. Fason during the first competency trial, which
resulted in a hung jury, and then failed to call him for the second competency jury, which found
Mr. Howard competent. He called Dr. Fason for punishment, even though Dr. Fason had told
him he needed to get a mitigation expert to present punishment issues. These issues were never
developed in state court and the findings of the state court are not entitled to any presumption
because there was no fact finding, just simply the signing of the state’s proposed findings and
conclusions by a Judge who had no knowledge of the trial.
During the District Court’s determination, the Court came to the erroneous conclusion
regarding the professional norms for the development of mitigating evidence. The District Court
determined that the requirements set out for counsel to investigate mitigation evidence in
Wiggins v. Smith, 539 U.S. 510 (2003) was not a prevailing standard at the time of Mr. Howard’s
trial in 2001. The District Court further stated that many of the standards that are applicable
“today were not available” in 2001. (ROA. 1656) This argument is simply not true based on two
principles. First, there is no evolving standards of competence in regards to the representation of
counsel. The standards of representation have changed little since 1984 when Strickland v.
Washington, 466 U.S. 668 (1984) was decided. Second even if there were some evolving
standards, in Wiggins the Supreme Court determined that Counsel was ineffective under the

14

prevailing standards of 1989, when the trial took place, for not properly conducting a mitigation
investigation. Additionally, the District Court asserts that the American Bar Association
Guidelines of 1989, are merely guidelines and the District Court refused to apply them in
considering the present claim. (ROA. 1088) The Supreme Court has held since Strickland that
the ABA guidelines are “standards to which we have long referred as ‘guides to determining
what is reasonable’. Strickland at 688.” Wiggins v. Smith, 539 U.S. at 524. Thus, the most
prevalent proof in ineffectiveness was when Mr. Moncriffe did not hire or seek appointment of
an expert to examine Mr. Howard and gather a life history for mitigation purposes, despite being
told he needed to do so by his own expert Dr. Fason. (ROA. 6147) Further, as noted above in the
proceedings, the record is replete with a picture of a bumbling attorney who was doing the bare
minimum to get through a trial that could not end soon enough for him because he had only
received 35,000 dollars to represent someone who had severe mental issues. Prejudice resulted in
that a complete picture of Mr. Howard’s mental illness and life history was not presented that
would likely have resulted in a life sentence.
Ineffective Assistance of Counsel in General
The Supreme Court has long recognized that the right to the effective assistance of
counsel under the Sixth Amendment means “the giving of effective aid in the preparation and
trial of the case.” Powell v. Alabama, 287 U.S. 45, 53 S.Ct. 55 (1932). The standard for judging
the performance of counsel is the same for appointed versus retained counsel. Cuyler v. Sullivan,
466 U.S. 335, 334, 100 S.Ct. 1708, 1716 (1980).
The prevailing test for determining if a person received the effective assistance of counsel in a
criminal proceeding is that set out in Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052
(1984), and the companion case of United States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039 (1984).

15

Thus, in order to prove the ineffective assistance of counsel, the Strickland Court held that: 1) to
establish ineffective assistance requiring reversal of a conviction, a defendant must show both a)
that counsel made errors so serious that counsel was not functioning as “counsel” guaranteed by
the Sixth Amendment, and b) that the “deficient performance prejudiced the defense”; 2) the
“proper standard for [measuring] attorney performance is that of reasonably effective
assistance,” as guided by “prevailing professional norms” and consideration of “all the
circumstances” relevant to counsel’s performance; 3) more specific guidelines in applying that
standard are “not appropriate”; and (4) the proper standard for measuring prejudice is where
there is a “reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceedings would be different.” Strickland, 466 U.S. at 687, 104 S.Ct. at 2064.
Justice O’Connor in explaining this broad non-specific approach to reviewing claims of
ineffectiveness noted that counsel must “consult with the defendant on important decisions and
…keep [him] informed of important developments.” Id. at 688-90, 104 S.Ct. at 2064-66. Thus,
the court must look at the attorney’s performance to determine “whether in light of all the
circumstances, the identified acts or omissions [of counsel] were outside the range of
professionally competent assistance.” It is the defendant’s burden to overcome the presumption
that counsel’s conduct was trial strategy. Id. at 689, 104 S.Ct. at 2065; See also United States v.
Clark, 741 F.2d 699 (5th Cir. 1984).
The Fifth Circuit’s response to the District Court’s failure to apply the correct standard
was to simply allege the issue was not properly briefed. Howard v. Davis, 959 F.3d 168, 173.
However, as set out above and in the motion for a certificate of appealability the issue was
properly briefed but the Fifth Circuit refused to consider it. Mr. Howard’s attorney failed to
present evidence regarding the head injury due to a gunshot wound, failed to hire a mitigation

16

expert as was suggested to him by his own psychological expert, and spent more time trying to
get more money from the Court for himself than he did in any way investigating Mr. Howard’s
mitigation issues.
Ineffectiveness of Counsel in Investigating and Presenting a Mitigation Case
As noted in the federal amended petition, the questioning and presentation of witnesses at
punishment by Mr. Moncriffe demonstrated a lack of investigation and understanding of what to
present. Mr. Moncriffe asked several family members and friends if they knew Mr. Howard and
then did nothing more than ask them if both families were hurting because of this.
The District Court repeatedly relied upon the state court findings and conclusions on State
habeas, and did so in reviewing the current claim. (ROA. 1085-1086) As noted above, these
findings and conclusions were prepared by the State for a different Judge eleven years after the
trial and were signed off by the new Judge without a hearing. When reviewing these findings in
light of the record present in 2012, there is no reason why a Judge would conclude in the manner
it did if they had reviewed, or at least cursory glanced at, the record. The State court found in
2012 that Mr. Moncriffe presented evidence concerning mental illness and mental retardation.
The State Court found that Mr. Howard was not mentally ill. A finding that has been clearly
rebutted in the state habeas presentation regarding repeated findings. The finding that trial
counsel was not deficient and he provided the effective assistance of counsel is clearly erroneous
given the record. 6

6

This finding is strange and could be the result that the Judge that made the finding did not
preside over the trial. Mental retardation, or intellectual disability, was not an issue at the trial of
Mr. Howard and Atkins was never brought out as a preventing factor until the direct appeal.

17

The Supreme Court has repeated in unqualified language for more than 30 years, the
foundational rule that the Eighth Amendment requires in death penalty cases the admission of
any mitigating evidence “that might serve ‘as abasis for a sentence less than death.’ ”Skipper v.
South Carolina,476 U.S. 1, 5,106 S.Ct.1669, 90 L.Ed.2d 1 (1986)(quoting Lockett v. Ohio,438
U.S.586, 604,98 S.Ct. 2954, 57 L.Ed.2d 973 (1978)). Over that period, the Supreme Court has
never invoked some evolving standards of competence or suggested that this relatively simple
Eighth Amendment mitigation rule, stated in many cases, 7 should be subject to “harmless error”
analysis. The reason for this rule is that a mandatory death penalty that leaves out consideration
of mitigation is unconstitutional. Each juror at the mitigation phase of the proceeding must have
the discretion to spare the defendant's life. The line of cases insists that the jurors should make
that judgment based on considering all mitigating factors weighed against the aggravating
factors. Each juror at the mitigation phase of the proceeding must have the discretion to spare the
defendant's life. Woodson v.North Carolina,428 U.S. 280, 96 S.Ct. 2978, 49 L.Ed.2d 944
(1976). 8 The Lockett line of cases insists that the jurors should make that judgment based on
considering all mitigating factors weighed against the aggravating factors.

7

Abdul–Kabir v. Quarterman,550 U.S. 233, 264–65, 127 S.Ct. 1654, 167 L.Ed.2d 585(2007); Smith v. Texas,543
U.S. 37, 45–48, 125 S.Ct. 400, 160 L.Ed.2d 303 (2004); Tennard v. Dretke,542 U.S. 274, 286–88, 124 S.Ct. 2562,
159 L.Ed.2d 384 (2004); Penry v. Johnson,532 U.S. 782, 804, 121 S.Ct. 1910, 150 L.Ed.2d 9 (2001); Penry v.
Lynaugh,492 U.S. 302, 317, 109 S.Ct. 2934, 106 L.Ed.2d 256 (1989); Hitchcock v. Dugger,481 U.S. 393, 398–99,
107 S.Ct. 1821, 95 L.Ed.2d 347 (1987); Skipper v. South Carolina,476 U.S. 1, 4, 106 S.Ct. 1669, 90 L.Ed.2d 1
(1986); Eddings v. Oklahoma,455 U.S. 104, 110–12, 102 S.Ct. 869, 71 L.Ed.2d 1 (1982); Bell v.Ohio,438 U.S. 637,
642, 98S.Ct. 2977, 57 L.Ed.2d 1010 (1978)
8

The Court in Woodson explained the mitigation requirement as follows: “In Furman, members of the Court
acknowledge what cannot fairly be denied that death is a punishment different from all other sanctions in kind
rather than degree. A process that accords no significance to relevant facets of the character and record of the
individual offender or the circumstances of the particular offense excludes from consideration in fixing the ultimate
punishment of death the possibility of compassionate or mitigating factors stemming from the diverse frailties of
humankind. It treats all persons convicted of a designated offense not as uniquely individual human beings, but as

18

The presentation of what could have been presented at mitigation is set out in the Federal
Amended Petition. (ROA.477-514) Additionally, State habeas counsel pointed out numerous
issues that Mr. Moncriffe did not explore including the head injury, attributed to being shot, in
1997, and mental illness. (ROA. 1084-1085) It is clear that Mr. Moncriffe’s theory on
punishment was to ask each witness if both families were suffering and at one time Mr. Howard
wasa good kid.
That strategy, and the lack of investigation that went into that strategy was clearly deficient and
resulted in prejudice to Mr. Howard. Mr. Howard is now on medication that controls his
schizophrenia within the TDCJ. Had Mr. Moncriffe presented that picture, along with how a
prior gunshot could have impacted Mr. Howard at the age of 17, the results could have certainly
been different. There was no strategy or adequate preparation that Mr. Moncriffe can rely upon
given the record in this case. Mr. Howard received the ineffective assistance of counsel at
punishment and the District Court’s determination on this matter is clearly wrong. A certificate
of appeal should issue.
Ineffective Assistance Regarding Competence and Statement to Police
As a preliminary matter, the District Court found that this issue was properly exhausted
before the State Courts. (ROA. 1129) Judge Thomas, the state judge who had taken over from
Judge Plunk, signed off on the Prosecution prepared findings of facts and conclusion of law,
eleven years after the trial. Those findings and conclusions are set out by the District Court in the
memorandum denying relief. (ROA. 1130-1131) Those findings, which include that counsel was

members of a faceless, undifferentiated mass to be subjected to the blind infliction of the penalty of death.”
Woodson,428 U.S. at 303–04, 96 S.Ct. 2978(internal citations omitted).

19

not ineffective, are not entitled to a presumption of correctness because they are simply wrong.
Mr. Moncriffe did not even consider competence until Dr. Fason urged him to get a psychologist
to review Mr. Howard for competence based upon what Dr. Fason saw. Mr. Moncriffe did ask
for an examination but did not review the material or talk to the appointed expert, Dr. Duncan,
until the state had rested on guilt-innocence. With regards to the statement, Mr. Moncriffe never
attempted to challenge the statement in any form, including that Mr. Howard was not competent
to give a knowing and voluntary waiver of rights. Thus, the state court findings are inapposite to
what is contained in the record.
Mr. Howard was denied his Sixth & Fourteenth Amendment rights to effective assistance
of counsel when his attorney failed to investigate Mr. Howard’s psychosocial history thoroughly
and failed to seek timely and relevant evaluations of the mental condition of Mr. Howard
regarding his competence to stand trial and whether his waiver of Miranda rights and subsequent
confession were knowing and intelligent.
As set out above in the facts section, Mr. Moncriffe orally requested that an expert
examine Mr. Howard only after Dr. Fason told him he needed to on March 5, 2001, despite an
obvious history of mental illness and not being able to properly communicate. Dr. Duncan
examined Mr. Howard and returned his report to the Court asserting that Mr. Howard was likely
not competent. Mr. Moncriffe did not discuss this report with Dr. Duncan until the day he began
opening his case on guilt innocence. It was the State who finally had to ask the Court to
conduct a competency hearing, for which Mr. Moncriffe was woefully unprepared. What is set
out in the record is a case where an attorney knew there was an issue of incompetency but did
nothing beyond asking the Court to figure it out by appointing an expert. Likewise, Mr.
Howard’s lack of competence impacted his ability to give a knowing and intelligent waiver for

20

purposes of Miranda. The statement that was gathered was used to demonstrate that Mr. Howard
was calculating and had no remorse, something that was highlighted time and again by the
prosecution in seeking a death penalty.
“Counsel has a duty to make reasonable investigations or to make a reasonable decision
that makes particular investigation unnecessary.” Strickland v. Washington, 466 U.S. at 491.
Trial counsel provides deficient performance if he fails to investigate a defendant's medical
history when he has reason to believe that the defendant suffers from mental health problems.
See Bouchillon v. Collins, 907 F.2d 589, 597 (5th Cir.1990) (“It must be a very rare circumstance
indeed where a decision not to investigate would be ‘reasonable’ after counsel has notice of the
client's history of mental health problems.”); Profitt v. Waldron, 831 F.2d 1245, 1248-49 (5th
Cir.1987)(holding that counsel has duty to investigate mental health history of defendant who
has been committed to a mental institution); Beavers v. Balkcom, 636 F.2d 114, 116 (5th
Cir.1981) (holding that counsel has duty to obtain medical records and speak with treating
physicians). Further, seeking the aid of a court-appointed psychiatrist, in some circumstances,
does not excuse the absence of further investigation. See Profitt,831 F.2d at 1249 (finding that
relying on opinion of court-appointed psychiatrist was not sufficient when counsel knew that
defendant had escaped from a mental institution).
In this case, the record is clear that Mr. Moncriffe did nothing regarding competency and
the knowing and voluntary waiver of rights in regards to the statement.There was adequate
knowledge on the part of Mr. Moncriffe, through Dr. Fason and family, that there were serious
questions about competency in this case ,and he did not follow up on that. It was the State that
finally had to bring out the issue. Thus, deficient performance was present and prejudice resulted
and this case should be remanded for a new trial.

21

CONCLUSION
For the foregoing the reasons the Court should grant the petition. The Fifth Circuit's
determination on these issues is contrary to opinions by this Court. A writ of certiorari should be
granted and the case remanded to the Fifth Circuit for further proceedings.

RESPECTFULLY SUBMITTED,

Don Bailey
Attorney for Jam
Howard
SBN O1520480
309 N. Willow
903 -892-9185
903 -891 -8304 Fax

22

